Department of Health and Human Services 

             OFFICE OF 

        INSPECTOR GENERAL 





NURSING HOME ENFORCEMENT:

        THE USE OF 

  CIVIL MONEY PENALTIES





                     Inspector General

                       April 2005
                     OEI-06-02-00720
               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs. The OEI also
oversees State Medicaid fraud control units, which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops compliance program guidances, renders advisory opinions on OIG sanctions to
the health care community, and issues fraud alerts and other industry guidance.
∆   E X E C U T I V E                                 S U M M A R Y


                  OBJECTIVE
                  To describe reduction, assessment, and collection patterns for civil
                  money penalties (CMP) imposed by the Centers for Medicare &
                  Medicaid Services (CMS) in calendar years 2000 and 2001.


                  BACKGROUND
                  The CMPs are one of eight discretionary remedies CMS may use to
                  address deficiencies in quality of care or safety standards. The CMPs
                  may be assessed per day of noncompliance or per instance of
                  noncompliance. Additionally, CMPs have required dollar ranges that
                  correspond to the seriousness of harm to the patient(s).

                  We analyzed 100 percent of data from CMS’s regionally-based Long-
                  Term Care Enforcement Tracking System for enforcement cases
                  beginning in 2000 and 2001 in which a CMP was imposed. These data
                  were supplemented with information from the CMP Tracking System,
                  housed in CMS’s central office. We also interviewed staff at CMS’s
                  regional offices and the Department of Health and Human Services,
                  Departmental Appeals Board.


                  FINDINGS
                  While $81.7 million in CMPs was imposed during 2000 and 2001,
                  $34.6 million (42 percent) was paid by December 2002. The
                  difference is primarily attributable to reductions authorized by
                  regulation and delays in making and collecting payments. Although
                  CMPs are used quite frequently (51 percent of CMS enforcement cases),
                  the CMP amounts originally imposed are often substantially decreased
                  before payment is due. Under current regulations, systematic
                  reductions, appeals, settlements, and bankruptcies are the main factors
                  contributing to this decrease.

                  Seventy percent of CMP cases (2,973) received a reduction from the full amount
                  imposed prior to payment request. Every nursing home is entitled to a
                  35 percent reduction for waiving its right to appeal. Appeal waivers and
                  appeal settlements account for $22.7 million in reductions.

                  Fourteen percent of cases with CMPs due remained uncollected as of
                  December 2002; bankruptcies and inconsistencies in the collections
                  process were the primary causes. At the end of our tracking period,
                  550 cases, totaling $11.7 million in CMPs due, were still outstanding.


OEI-06-02-00720   NURSING   H O M E E N F O R C E M E N T:   THE USE   OF   C I V I L M O N E Y P E N A LT I E S   i
E X E C U T I V E                    S U           M M A R Y


                   The most frequent reasons for nonpayment were bankruptcies and cases
                   for which there was no documentation that CMS attempted to collect.

                   Eight percent of all CMP cases were not yet due by December 2002. By the end
                   of our data tracking period, 339 cases had been delayed for more than a
                   year, almost exclusively the result of processing appeals and/or
                   bankruptcies.
                   CMS does not utilize the full dollar range allowed for CMPs;
                   impositions tend toward the lower ends of the ranges. The median
                   per day imposition amount for the most severe (immediate jeopardy)
                   cases was about $4,000, at the 15th percentile of the allowable range
                   ($3,050 to $10,000). The median per day imposition amount for less
                   severe cases involving a CMP was $250, at the 7th percentile of the
                   allowable range ($50 to $3,000).
                   Cases not appealed took over 6 months to collect; appealed cases
                   took substantially longer. The Social Security Act specifies that
                   remedies should be designed “. . . to minimize the time between the
                   identification of violations and final imposition of the remedies.”
                   Required procedures slow this timeframe for all CMP cases, and
                   appealed cases took twice as long to collect as cases not appealed. In
                   those cases, CMS’s collection efforts cease until an administrative
                   decision is reached; therefore, total collection time in appealed cases
                   includes the time attributed to the administrative appeals process.


                   RECOMMENDATIONS
                   This inspection highlights several conditions within the current
                   enforcement system that could be improved. We recommend that CMS:

                   ○     Provide written guidance to CMS staff and States regarding
                         appropriate dollar ranges for individual ratings of scope and
                         severity.

                   ○     Provide written guidance to CMS staff to clarify responsibilities
                         with respect to past due CMPs and to conduct an internal process
                         review that would enable CMS and States to streamline CMP
                         processing.
                   Agency Comments
                   CMS concurred with our recommendations. The agency further
                   commented it has already begun work to promote consistent imposition
                   of CMPs and to develop appropriate policy guidance regarding


 OEI-06-02-00720   NURSING   H O M E E N F O R C E M E N T:   THE USE   OF   C I V I L M O N E Y P E N A LT I E S   ii
E X E C U T I V E                       S U           M M A R Y 





                  responsibility for collection of past-due CMPs and streamlined CMP
                  processing.

                  CMS noted that we included required reductions for appeal waivers,
                  appeals, and settlements in a discussion of CMP amounts imposed and
                  paid. CMS suggested that an Office of Inspector General (OIG) analysis
                  of the collection process should more properly begin with the amount
                  remaining after accounting for these required reductions and that doing
                  otherwise may imply OIG criticism of CMS performance. We recognize
                  that reductions for appeal waivers, appeals, and settlements are
                  required by Federal regulations, and we appreciate CMS’s concern in
                  this matter. For this reason, we have made certain to clearly denote
                  throughout the report which reductions are obligatory.




OEI-06-02-00720   NURSING   H O M E E N F O R C E M E N T:   THE USE   OF   C I V I L M O N E Y P E N A LT I E S   iii
∆   T A B L E            O F             C O N T E N T S



         EXECUTIVE SUMMARY ......................................... i




         INTRODUCTION ................................................ 1




         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 

                     $81.7 million in CMPs was imposed. . . . . . . . . . . . . . . . . . . . . . . . . . . 10 


                     CMS does not utilize the full dollar range allowed . . . . . . . . . . . . . . 13 


                     Cases took over 6 months to collect . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 




         E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 

                     A: Discretionary Remedies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 


                     B: Data Description and Cleaning . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25 


                     C: Terminology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29 


                     D: Agency Comments to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . 31 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34 

                     OBJECTIVE
                     To describe reduction , assessment , and collection patterns for civil
                     money penalties (CMP) imposed by the Centers for Medicare &
                     Medicaid Services (CMS) in calendar years 2000 and 2001.


                     BACKGROUND
                     Sections 1819 and 1919 of the Social Security Act establish the
                     requirements that nursing homes must meet to participate in the
                     Medicare and Medicaid programs. The Secretary is responsible for
                     ensuring that these requirements and their enforcement " are adequate
                     to protect the health , safety, welfare , and rights of residents and to
                     promote the effective and effcient use of public moneys.
                     Nursing Home Enforcement
                     The Omnibus Budget Reconciliation Act of 1987 (OBRA ' 87) established
                     a survey and certification process for States and CMS to verify that
                     Federal standards are maintained in Medicare and MedicarelMedicaid
                     dually- certified nursing homes. CMS contracts with State agencies to
                     survey and certify compliance with Federal standards no less than once
                     every 15 months. Additional surveys or abbreviated surveys are also
                     used to investigate complaints. Any deficiency that puts the nursing
                     home out of substantial compliance , as determined through the surveys
                     may initiate CMS enforcement action(s).
                     The State uses information from the surveys along with a nursing
                     home s past record of compliance to determine what action(s) to take
                     and/or to recommend. Specific remedies recommended by the State are
                     usually accepted and imposed by CMS. However , imposed remedies wil
                     not actually go into effect until after a formal notice period is observed
                     and the effective date given to the nursing home is reached. At any
                     time during this enforcement cycle , the State may conduct a " revisit" to
                     determine if deficiencies have been corrected. During revisits
                     surveyors may also revise (increase or decrease) deficiency rankings or
                     cite new deficiencies. Enforcement actions may be rescinded , new
                     actions imposed , or timeframes adjusted as a result of the revisit
                     findings.
                     Each enforcement case (from initial finding of deficiency to either
                     termination of the Medicare contract or substantial compliance) is
                     characterized by rigidity in timeframes , but flexibility in course of
                     action. The designed purpose is to create an environment in which

OEI- 06- 02- 00720   NURSING HOME ENFORCEMENT: THE USE OF CIVIL MONEY PENALTIES
I N T R O D        U C T         I O N


                    enforcement staff may customize the process to appropriately address
                    the uniqueness of each situation.

                    The following flow chart (Figure 1) provides an overview of the
                    enforcement process for Medicare and Medicare/Medicaid dually-
                    certified nursing homes. Terms within the flowchart are defined in
                    subsequent sections. A number of variations from this diagram can,
                    and will, frequently occur.3 Regardless of any exceptions that may
                    occur, immediate jeopardy is to be resolved within 23 days and all
                    nursing homes must be in substantial compliance within 6 months or
                    CMS is required to terminate the Medicare contract.




 OEI-06-02-00720    NURSING   H O M E E N F O R C E M E N T:   THE USE   OF   C I V I L M O N E Y P E N A LT I E S   2
I N T R O D                      U C T                 I O N 




                   Figure 1: Flowchart of the Enforcement Process



                   S ur ve yo r fi n ds
                    a d e fic i en c y




                     S ub sta n tia l                                       Cy cl e E nd s
                     C o mp l i an ce                    Y es


                         No


                                                                                                                                               T he s ta te n ot if ie s t h e fa c ili ty
                      I m m ed i ate                                                                                                          an d CM S o f reco m m e nd at ion
                        J eo p ar dy                                                                                                        t o im p ose i m m e d ia te rem ed ie s,
                                                     Ye s                                                                                          in c lud in g t erm i na ti on o r
                                                                                                                                                 t em pora ry m ana ge m en t.
                         No



                       D o ub l e G
                          R u le
                                                    Ye s                                                                                         C M S im p oses re m ed ies;
                                                                                                                                                       no t ifi es fa c ili t y
                         No


                                                                                 S t at e n ot if ies f ac il it y
                     Op p or tu ni ty                                     o f de fi cien c ie s a nd m an dat o ry
                      to Co rr ec t                      No                  re m ed ies ; req u i res P O C.                                     F aci lit y sub m it s P l an of
                                                                                                                                                             Corre ct ion

                        Y es


                                                                              Th e st at e no t ifi es CM S o f
                 S ta te n ot if ie s f ac i lit y                           reco m m en da t ion t o i m po se                                                 Re vi si t                             T e rm i n ati o n
          o f d efi cien c ie s and m an da to ry                                       re m ed ies .                         N on i m me d ia te                                I m me d ia te
              re m ed ies ; req u i res P O C                                                                                 J eo p ar dy                                       Je o pa rd y
                                                                                                                              D efi ci e nc i es

                                                                                                                                                                     S u b sta nti a l
                                                                                                                                                                     C om p l ia n ce

                   F ac i lit y s ub m it s         No                        C M S im p ose s re m ed ie s;
                                                                              no t ifi es fa c ili t y of ef fec ti ve                                    Cy cl e E nd s
                   a ccep ta ble P lan
                     of C orrec ti on                                                       dat e(s).


                                 Y es
  I mm e di a te                                                               F aci lit y sub m i ts P l an o f
  Je op a rd y                                                                           C orrect io n.
                         R evi si t
                                              No n im m ed i ate
                                              Je op a rd y                                                                                                          Rem ed i es t ake ef fe ct .
            S u bs tan ti al                  De fic i en ci e s                                                               N on i m me d ia te
            Co m pl i an c e                                                                                                   Je o pa rd y
                                                                                            Re vi si t                         D efi ci e nc i es
                                                            I m me di a te
                     C yc le E n ds                         Je o pa rd y
                                                                                                   S u bs tan ti al
                                                                                                   Co m pl i an c e
                                                                                                                                                                  I f n on-c om p lia nt for 3 m on th s
                                                                                 Re m ed ies re sc in ded .                                                         D en ial o f P a ym ent s f or New
                                                                                                                                                                    A d m is s i ons g oes i nt o ef fe c t.

         Rem ed i es t ake ef f ect .
                                                                                        C yc le E n ds

                                                                                                                                                                 I f n on -com p lia nt fo r 6 m on t hs,
                                                                                                                                                                M ed ica re con tra ct i s te rm i n ate d.



             Source: Office of Inspector General Analysis of Documents, Regulations, and Interviews with CMS



           OEI-06-02-00720                        NURSING       H O M E E N F O R C E M E N T:    THE USE        OF      C I V I L M O N E Y P E N A LT I E S                                                  3
I N T R O D 
U C T              I O N


                   Scope and Severity
                   The Scope and Severity Grid (Table 1) was created so that deficiencies
                   could be ranked in accordance with outcomes, e.g., harm to patients, as
                   required by regulations.4 The “severity” of the deficiency refers to the
                   degree of harm, while the “scope” of the deficiency refers to the number
                   of affected residents. These factors are combined to rank deficiencies on
                   a scale from A through L. The ranking is then used to define specific
                   levels of compliance and to select appropriate remedies.


                   Table 1: Scope and Severity Grid for Deficiencies
                                                                                                      Deficiency Scope
                      Deficiency Severity
                                                                         Isolated                                   Pattern       Widespread
                                                                               J                                      K                L
                   Actual or potential for
                                                                        Category 3                            Category 3           Category 3
                   death or serious injury
                                                                 Optional: Category 1;                Optional: Category 1;   Optional: Category 1;
                   (immediate jeopardy)
                                                                        Category 2                            Category 2           Category 2
                                                                              G                                       H                 I
                                                                        Category 2                            Category 2           Category 2
                   Actual harm that is not
                                                                 Optional: Category 1                  Optional: Category 1   Optional: Category 1;
                   immediate jeopardy
                                                                                                                                   Temporary
                                                                                                                                  Management
                                                                              D                                       E                F
                   Potential for more than                            Category 1                            Category 1             Category 2
                   minimal harm                                  Optional: Category 2                  Optional: Category 2   Optional: Category 1


                                                                               A                                      B                C
                   Potential for minimal
                                                                        Substantial                           Substantial         Substantial
                   harm, substantial
                                                                        Compliance                            Compliance          Compliance
                   compliance exists

                   Source: CMS State Operations Manual

                   As shown in Table 2 (next page), the category from which remedies will
                   be chosen is determined by the highest “scope and severity” of the
                   deficiencies (i.e., deficiencies with a scope and severity rating closest to
                   L) rather than the number of deficiencies. However, for each category,
                   there is an option to impose additional remedies from categories other
                   than those indicated by the scope and severity rating, if that is
                   determined to be appropriate. For example, a nursing home with at
                   least one deficiency associated with “actual harm” (scope and severity
                   ratings G through I) may receive one or more remedies from Category 2.
                   Additional remedies from Category 1 may also be imposed.




 OEI-06-02-00720   NURSING   H O M E E N F O R C E M E N T:   THE USE   OF   C I V I L M O N E Y P E N A LT I E S                            4
I N T R O D        U C T         I O N 





                    Table 2: Discretionary Remedies by Category
                          Category 1             Category 2                                                                  Category 3
                    Directed Plan of Correction                   Denial of Payments for New                         Temporary Management
                                                                   Admissions


                    State Monitoring                              Denial of Payments for All                         Termination
                                                                   Individuals
                                                                                                                     Optional:
                    Directed In-Service Training                  Civil Money Penalties                              Civil Money Penalties
                                                                   $50 - $3,000 per day                               $3,050 - $10,000 per day
                                                                   $1,000 - $10,000 per instance                      $1,000 - $10,000 per instance
                    Source: CMS State Operations Manual



                    Remedies
                    The enforcement actions available to CMS include both mandatory and
                    discretionary remedies. These remedies are used to bring nursing
                    homes into compliance. The current remedy options are the result of
                    the enforcement strategy established in OBRA ’87 and implemented in
                    1995.5,6
                    Mandatory remedies are those that must be imposed and take effect in
                    accordance with statutory requirements, such as extended
                    noncompliance ending in termination of the Medicare contract.
                    Discretionary remedies are those that may be customized to address
                    each nursing home’s circumstance; they are selected in accordance with
                    the scope and severity grid. The stated purpose of remedies is “to
                    ensure prompt compliance with program requirements.”7 Additional
                    remedies may be imposed by individual States under their licensure
                    authority and for Medicaid-only facilities; however, those will not be
                    discussed within this report.

                    CMS has at its disposal eight discretionary remedies to address
                    deficiencies found during a survey. One such remedy is the civil money
                    penalty, with fines ranging from $50 to $10,000. All eight discretionary
                    remedies are described in Appendix A.
                    Civil Money Penalties
                    The CMPs can either be per day or per instance; the fine amount can
                    vary depending on the scope and severity of the deficiency. (See
                    Table 2.) Per day fines usually begin accumulating on the last day of
                    the survey and continue accruing until substantial compliance is
                    achieved (i.e., deficiencies are corrected to the scope and severity level of

 OEI-06-02-00720    NURSING   H O M E E N F O R C E M E N T:   THE USE   OF   C I V I L M O N E Y P E N A LT I E S                             5
I N T R O D        U C T         I O N


                    “C” or lower). Per instance CMPs (established in 1999) allow a set
                    dollar amount to be imposed in relation to a particular deficiency.

                    Per day and/or per instance CMPs were imposed in 51 percent of the
                    8,309 enforcement cases referred to CMS during the years 2000 and
                    2001. They were imposed almost twice as often as the second most
                    utilized remedy, denial of payments for new admissions.

                    Unlike other remedy options, CMPs have no notice requirement, and
                    the effective date is usually retroactive to the last day of the survey.
                    For many non-CMP remedies, the notice period and delayed effective
                    date serve as an opportunity for nursing homes to achieve compliance
                    and, consequently, preempt the remedy from going into effect.

                    Once CMS notifies a nursing home of the CMP amount due and
                    requests payment, remittance is expected within 15 days, unless a
                    payment schedule is negotiated or the nursing home files an appeal.
                    Monies not received within the specified timeframes will begin to accrue
                    interest. If collection efforts fail, Medicare’s fiscal intermediary and the
                    appropriate State agency should be notified to withhold payments from
                    the home until the balance is paid.8
                    Appeals
                    Facilities have the right to contest survey findings through an
                    administrative appeal and/or an informal dispute resolution process. In
                    both cases, there is potential for one or more deficiencies to be
                    eliminated, or for a scope and severity rating to be revised.
                    Determinations made through an administrative appeal or informal
                    dispute resolution are carried through to the enforcement actions
                    pending or initiated. Remedies are retrospectively adjusted to reflect
                    the new findings.

                    The CMPs differ from other remedies in that CMPs cannot go into effect
                    (i.e., monies are not collected) until an administrative appeal decision is
                    reached (this does not apply to informal dispute resolutions, nor does it
                    extend to judicial appeals that may follow an administrative appeal).
                    For this reason, nursing homes may use the administrative appeal to
                    delay payment of a CMP. Other types of remedies are not delayed
                    during an administrative appeal. A Government Accountability Office
                    (GAO) report in March 1999 tracked the imposition of CMPs for a
                    sample of nursing homes with multiple survey deficiencies identified
                    between 1995 and 1998. In GAO’s sample, 115 CMPs were imposed, but
                    78 of those had not yet taken effect as of the report’s publication. Many
                    of the 78 CMPs were still under appeal.9

 OEI-06-02-00720    NURSING   H O M E E N F O R C E M E N T:   THE USE   OF   C I V I L M O N E Y P E N A LT I E S   6
I N T R O D        U C T         I O N


                    Appeal Waivers
                    Regulations require that CMS or the State reduce the amount of the
                    penalty by 35 percent if the nursing home chooses to waive its right to
                    appeal the deficiency.10 In issuing this regulation, CMS stated that
                    “. . . the reduction . . . would reflect the savings to both the government
                    and the provider of costs that would otherwise be incurred to formally
                    adjudicate the dispute.”11 In spite of this waiver program, over
                    700 nursing home enforcement administrative appeals have been
                    requested each year since 2000. This represents approximately
                    20 percent of CMP cases and 7 percent of cases not involving a CMP. 12


                    METHODOLOGY
                    This study relies on data from CMS’s Long-Term Care Enforcement
                    Tracking System (LTC), its Civil Money Penalty Tracking System
                    (CMPTS), and a set of interviews. Analysis was conducted on
                    100 percent of the data for 9 of the 10 CMS regions (region II was
                    excluded as the result of self-reported implementation difficulties), with
                    the exception of cases eliminated because data were missing or
                    incorrect.
                    Scope
                    This study is limited to the 4,253 cases involving CMPs imposed by
                    CMS as the result of surveys or complaint visits during the years
                    2000 and 2001. The cases were tracked through December 16, 2002.
                    Any actions that occurred after that date are not included in this report.
                    Also, the data include only those cases that States referred to CMS.
                    This means that all cases found to have deficiencies with a scope and
                    severity level of A, B, or C, cases in which the nursing home successfully
                    corrected after being given an “opportunity to correct,” and any cases
                    mistakenly not referred by the State are not included. Other
                    enforcement authorities rest with the States and the Office of Inspector
                    General for the Department of Health and Human Services (HHS);
                    however, the authorities and actions based on them are beyond the
                    scope of this study.13
                    Long-Term Care Enforcement Tracking System
                    The LTC database is a compilation of each CMS region’s nursing home
                    enforcement case files. In the nine regions used, caseworkers update
                    this information as enforcement actions occur. More detailed
                    information about the LTC database is provided in Appendix B.



 OEI-06-02-00720    NURSING   H O M E E N F O R C E M E N T:   THE USE   OF   C I V I L M O N E Y P E N A LT I E S   7
I N T R O D        U C T         I O N


                    Significant cleaning of the data was necessary.14 The data cleaning
                    process, detailed in Appendix B, included elimination of cases with
                    questionable values or pertinent missing data during the affected
                    analysis, correction of typographical errors and inconsistent
                    information, and deletion of duplicate files. A total of 4 percent
                    (353 records) was eliminated from all analysis.
                    Civil Money Penalty Tracking System
                    The CMPTS is the centralized CMS database used for tracking the
                    collection and allocation of CMP payments. For analysis involving
                    monetary collections, we found it beneficial to capture fields regarding
                    CMP payments through the CMPTS data rather than the LTC data.
                    The CMPTS data were additionally useful for matching CMP amounts
                    with the specific scope and severity levels that were used to determine
                    those amounts.

                    After significant data cleaning, we found a match rate of more than
                    99 percent between CMPTS and LTC. For calendar years 2000 and
                    2001, we found 4,253 CMP cases included in both LTC and CMPTS.
                    More detailed information about the CMPTS database is provided in
                    Appendix B.
                    Interviews
                    CMS Regional Staff. Interviews with staff in all CMS regions regarding
                    their use of the LTC database allowed us to better understand the
                    operational differences between regions.

                    Departmental Appeals Board. Interviews with staff at the Departmental
                    Appeals Board allowed us to better understand administrative appeals
                    as they relate to nursing home enforcement. Staff also supplied us with
                    information on case status and outcomes for particular cases within the
                    LTC database and with aggregate numbers on the appeals caseloads.
                    Data Limitations
                    The LTC data were determined to be the best source of comprehensive
                    enforcement data, and therefore are the primary data in our analysis.
                    Certain limitations to the data are noted; however, they do not
                    compromise the quality of our findings. The data include only 9 of the
                    10 regions, and only cases actually referred from States (rationale for
                    excluding region II is included in Appendix B).

                    Estimation errors could result from the omission of cases with missing
                    information in certain analyses. Of particular concern are dismissed
                    CMPs and payment dates. The case notes in many files indicated that


 OEI-06-02-00720    NURSING   H O M E E N F O R C E M E N T:   THE USE   OF   C I V I L M O N E Y P E N A LT I E S   8
I N T R O D        U C T         I O N


                    revocation of a CMP resulting from a bankruptcy settlement or an
                    appeal determination was reflected in the data by deleting the CMP
                    from the case record. Therefore, both the aggregate impositions and
                    reductions may be understated. Also, the data required for computing
                    the time between the date the CMP was considered due and the date
                    the CMP was paid were available for only 2,605 of the 3,850 applicable
                    cases. We believe that these dates were missing because the cases were
                    still in process at the end of our data tracking period. For this reason,
                    the collection time may be significantly underestimated.
                    Terminology
                    A list of defined terms is located in Appendix C. This section
                    establishes operational definitions, as well as the fundamental
                    vocabulary used in the field of long-term care enforcement. For
                    example, the term “actual harm” (customarily defined as scope and
                    severity levels G, H, and I) is expanded to include scope and severity
                    level F. These distinctions are important for precise interpretation of
                    our findings.
                    Quality Standards
                    This study was conducted in accordance with the Quality Standards for
                    Inspections issued by the President’s Council on Integrity and
                    Efficiency.




 OEI-06-02-00720    NURSING   H O M E E N F O R C E M E N T:   THE USE   OF   C I V I L M O N E Y P E N A LT I E S   9
 ∆
      F I N D I N G S



While $81.7 million in CMPs was imposed during               Although CMPs are used
  2000 and 2001, $34.6 million (42 percent) was             frequently (51 percent, 4,253, of all
      paid by December 2002. The difference is              8,309 enforcement cases), the CMP
                                                            amounts originally imposed are
 primarily attributable to reductions authorized
                                                            often substantially decreased before
         by regulation and delays in making and
                                                            payment is due. Under current
                            collecting payments.            regulations, systematic reductions,
                       appeals, settlements, and bankruptcies are the main factors
                       contributing to this decrease. Of the $81.7 million that was imposed by
                       CMS during the years 2000 and 2001, $34.6 million (42 percent) was
                       paid by nursing homes. The unpaid portion, $47.1 million (58 percent),
                       was most affected by reductions to amounts imposed and by delays in
                       due dates. (See Table 3.)



                       Table 3: Reductions and Delays in Due Dates Most Affected CMP Amounts
                       (in millions)
                       Total Imposed                                                                               $81.7
                       Total Paid                                                                                  $34.6   (42% of imposed)
                       Difference                                                                                  $47.1   (58% of imposed)
                       Difference of $47.1 is attributable to:
                                  Reductions in Amount Due                                                         $22.7     48% of difference
                                                Appeal Waivers                                                     $11.8
                                                Appeals and Settlements                                            $10.8
                                                Other                                                              $0.1
                                  Not Yet Due                                                                      $12.7     27% of difference
                                                Appeal                                                              $8.5
                                                Bankruptcy in Process                                               $3.7
                                                Other                                                               $0.5
                                  Partial Payment Made                                                              $3.3      7% of difference
                                                Installment: Not Fully Due                                          $1.8
                                                Remainder Due is Late                                               $1.3
                                                Other                                                               $0.2
                                  No Payment Made                                                                   $8.4     18% of difference
                                                Late                                                                $5.3
                                                Bankruptcy*                                                         $2.9
                                                Extended Due Date                                                   $0.2
                       Source: Office of Inspector General Analysis of LTC and CMPTS data, 2003
                       *For this subgroup, available data indicated that the CMPs were due and payable; however, some may be uncollectable.
                       Either the case was incorrectly entered into CMPTS as due or the facility is unable to pay subsequent to the resolution of
                       the bankruptcy case.



                       The unpaid portion included $11.8 million in reductions resulting from
                       nursing homes waiving their right to appeal and $10.8 million in
                       settlements and reductions resulting from appeals. An additional


     OEI-06-02-00720   NURSING   H O M E E N F O R C E M E N T:   THE USE   OF   C I V I L M O N E Y P E N A LT I E S                            10
F   I N D I N G 
S


                      $12.7 million was not yet due, generally as the result of delays caused
                      by appeals or bankruptcy proceedings. Nonpayment of collectable
                      CMPs accounted for only 14 percent ($6.6 million) of the $47.1 million in
                      uncollected CMPs during the years 2000 and 2001; $5.3 million from the
                      category No Payment Made/Late and $1.3 million from Partial Payment
                      Made/Remainder Due is Late.
                      Seventy percent of CMP cases received a reduction from the full amount
                      imposed prior to a payment request.
                      For 70 percent of cases (2,973 of 4,253 cases), an average reduction of
                      43 percent of the imposed amount occurred. Reductions to the amounts
                      imposed were the results of nursing homes waiving their rights to
                      appeal, appeals, and settlements.



                      Table 4: Reductions for Immediate Jeopardy Cases Were the Most Significant
                                                         Average Amount
                                                                                          Average Amount Due           Average Reduction
                                                            Imposed
                           Immediate
                                                                 $37,088                              $18,695                50%
                            Jeopardy

                         Actual Harm                             $12,796                               $8,154                36%
                      Source: Office of Inspector General Analysis of LTC and CMPTS data (4,119 cases)


                      On average, as Table 4 shows, the cases with more serious immediate
                      jeopardy deficiencies (scope and severity ratings of J, K, and L) received
                      a higher percentage reduction to imposition amounts than the less
                      serious actual harm cases.

                      Appeal Waivers. For the sample years 2000 through 2001, 59 percent of
                      all cases (2,498 of 4,253) elected to waive their right to appeal; in return,
                      they received a 35 percent reduction in their CMP amount as required
                      by regulation. The waiver option and reduction amount are granted to
                      nursing homes through Federal regulations.15 Reductions from the
                      appeal waiver totaled $11.8 million for the sample years, with an
                      average reduction of $4,717 per case. Facilities with higher dollar
                      CMPs imposed were less likely to use the waiver, opting for the formal
                      appeals process.16 The mean CMP imposed for cases that waived their
                      rights to appeal was $13,489, while the mean CMP imposed for cases
                      requesting appeals was $41,873.

                      Appeals and Settlements. Appeals and settlements reduced fine amounts
                      in 11 percent of all CMP cases (466 of 4,253).17 Combined, appeals and
                      settlements reduced CMP impositions by $10.8 million during the

    OEI-06-02-00720   NURSING   H O M E E N F O R C E M E N T:   THE USE   OF   C I V I L M O N E Y P E N A LT I E S                   11
F   I N D I N G 
S



                      2-year sample period. Appeals were requested more frequently in cases
                      involving a CMP (20 percent) than in non-CMP cases (7 percent).

                      Appeals have the potential to alter the scope and severity of the
                      deficiencies that are driving enforcement or to eliminate one or more
                      deficiencies altogether. If the deficiencies driving enforcement action
                      are changed, the remedies must be modified to appropriately address
                      the newly-defined circumstance. Of the 632 appealed CMP cases from
                      2000 and 2001 for which the final decision is known, 74 percent resulted
                      in dollar amount reductions. The average reduction was 56 percent of
                      the imposed amount (including pretrial settlements). Even those
                      nursing homes that do not prevail at the hearing benefit by significant
                      delays in due dates, deferring direct financial costs.

                      Bankruptcies. Bankruptcies are another source of dollar amount
                      reductions that is not fully apparent in Table 3. CMS is required to
                      consider the financial condition of the nursing home prior to imposing a
                      CMP.18 For this reason, CMS may reduce the CMP amount
                      recommended by the State or decide not to impose a CMP at all. When
                      a CMP is imposed, a nursing home facing financial difficulties will likely
                      choose the appeal waiver and receive a 35 percent reduction or will
                      request a formal appeal, often resulting in a reduction. We did not
                      consider these reductions to be a direct result of the bankruptcy, but
                      realize that financial condition may influence the nursing home’s
                      behavior. Additionally, bankruptcy settlements often result in the CMP
                      being discharged or reduced.

                      Overall, 14 percent of cases where CMPs were imposed involved nursing
                      homes that filed for bankruptcy or were part of a chain that filed for
                      bankruptcy (608 of the 4,253 CMP cases). Eighteen million dollars in
                      CMPs (22 percent of the total amount imposed) were imposed on these
                      nursing homes. These facilities paid only 50 percent of the amount that
                      was due ($4.3 million of $8.7 million), and only 24 percent of the amount
                      that was originally imposed ($4.3 million of $18 million).
                      Fourteen percent of cases with CMPs due remained uncollected as of
                      December 2002; bankruptcies and inconsistencies in the collections
                      process were the primary causes.
                      For 2000 and 2001, nearly 550 cases, totaling $11.7 million in CMPs
                      that were due and payable, were still outstanding as of December 2002
                      ($3.3 million for partial payments and $8.4 million for no payments).
                      The most frequent reasons for nonpayment were bankruptcies
                      (168 cases, which were included in the discussion above of bankruptcy,

    OEI-06-02-00720   NURSING   H O M E E N F O R C E M E N T:   THE USE   OF   C I V I L M O N E Y P E N A LT I E S   12
F   I N D I N G        S


                      paid part or none of the amount due) and cases in which the data
                      revealed no apparent collection effort (184 cases).

                      According to the centralized tracking system for CMP payments, the
                      CMPTS, at least 174 of the 550 unpaid cases with data available
                      (including some cases with collection activity and some without)
                      remained outstanding for more than 1 year. The majority of the
                      174 cases had no payment as of December 2002. In cases of
                      nonpayment, CMS may advise the fiscal intermediary and State agency
                      to withhold or offset payments for services rendered up to the amount
                      that is owed. However, according to interviews with CMS staff, this is
                      not routinely done in all regions. It appears that some regions accept
                      the onus of CMP collection efforts, while other regions expressed that
                      their role ends after entering the necessary information into CMPTS
                      and that the CMS central office is then responsible. There is
                      opportunity for CMPs to remain uncollected for extended amounts of
                      time.
                      Eight percent of all CMP cases were not yet due by December 2002.
                      Of the 4,253 CMP cases, 339 cases (almost exclusively appeal and/or
                      bankruptcy cases) had been delayed for more than a year as the result
                      of required abeyances (temporary inactivity). A CMP in the process of
                      an appeal or bankruptcy cannot be collected until a decision is made as
                      to whether all or a portion of the imposed amount should be dismissed.
                      These cases (representing $12.7 million in CMPs imposed) were
                      initiated by a survey performed during the years 2000 or 2001.
                      However, there was no “amount due” entered into CMPTS as of
                      December 2002, the end of our data tracking period, nor was there
                      evidence of collection efforts by CMS regional offices in the databases
                      analyzed. Although the majority of these cases will likely have some
                      reduction to their CMPs, reduction amounts are unknown.



      CMS does not utilize the full dollar range               The CMP dollar amounts are
allowed for CMPs; impositions tend toward the                  required to be imposed within
                    lower ends of the ranges.                  defined ranges, according to the
                                                               degree of harm caused by the
                      deficiency, i.e., scope and severity rating.19 The ranges are inclusive of
                      multiple scope and severity ratings and leave a great deal of discretion
                      to regional enforcement staff. In practice, the allowable ranges are not
                      utilized to their fullest extent.



    OEI-06-02-00720   NURSING   H O M E E N F O R C E M E N T:   THE USE   OF   C I V I L M O N E Y P E N A LT I E S   13
F    I N D I N G               S




    Figure 2: Per Day Imposition Amounts for Actual Harm and Immediate Jeopardy




Source: Office of Inspector General Analysis of LTC and CMPTS data, 2003


                              Per Day CMPs. Forty percent of documented immediate jeopardy cases
                              had CMPs imposed at the bottom of the allowable per day range—
                              $3,050 (259 of 630 cases). In actual harm cases, over 80 percent of cases
                              had CMPs imposed below the 15th percentile of the allowable range—
                              $500 or less (1,856 of 2,229 cases). The median-imposed CMP for
                              immediate jeopardy cases was $4,000 (the 14th percentile of the
                              allowable range). The median-imposed CMP for actual harm cases was
                              $250 (the 7th percentile of the allowable range). The distributions are
                              displayed in Figure 2 (next page).

                              The CMPs were imposed at the maximum amount in 8 percent of
                              immediate jeopardy cases versus 1.2 percent of actual harm cases. In
                              many of the immediate jeopardy cases for which the highest CMP
                              amount was utilized, noncompliance was resolved within only a few
                              days. (Deficiencies constituting immediate jeopardy are often corrected
                              before the surveyors leave the nursing home.)

                              Per instance CMPs. Per instance CMPs do not accrue over time and
                              may be imposed in amounts between $1,000 and $10,000. In immediate
                              jeopardy cases, where per day CMP totals could rise to tens or even
                              hundreds of thousands of dollars, per instance CMPs were chosen in
                              over half the cases. Two-thirds of per instance CMPs were imposed at
                              nonaccruing amounts of $5,000 or less, and over 30 percent of actual
                              harm cases were imposed at the minimum amount of $1,000. The
                              distributions are displayed in Figure 3 (next page).

    OEI-06-02-00720           NURSING   H O M E E N F O R C E M E N T:   THE USE   OF   C I V I L M O N E Y P E N A LT I E S   14
F   I N D I N G                S



Figure 3: Per Instance Imposition Amounts for Actual Harm and Immediate
Jeopardy




Source: Office of Inspector General Analysis of LTC and CMPTS data, 2003


                             The dollar ranges and availability of per instance CMPs allow CMS to
                             customize remedies to address the unique circumstances of each
                             instance of noncompliance; however, these options also allow for
                             remedies that have minimal impact on noncompliant homes. For
                             example, one nursing home was assessed only the minimum per
                             instance CMP of $1,000 during a period of noncompliance that included
                             a deficiency of widespread immediate jeopardy relating to quality of
                             care.20 According to CMS, per instance CMPs may be used when high
                             CMPs are warranted in an effort to avoid putting nursing homes out of
                             business. A closure would displace numerous beneficiaries, potentially
                             disrupting their care.21
                             Total Impositions. Impositions for combined per day and per instance
                             CMPs rose above $20,000 in less than 25 percent of cases (939 of
                             4,253 cases) and above $50,000 in less than 10 percent of cases (384 of
                             4,253 cases). This may also be the result of CMS’s requirement to
                             consider the nursing home’s financial status when determining
                             imposition rates.22




    OEI-06-02-00720          NURSING   H O M E E N F O R C E M E N T:   THE USE   OF   C I V I L M O N E Y P E N A LT I E S   15
 F   I N D I N G             S           


            FIGURE 4: Appealed Cases Took Significantly Longer to Collect




            Source: Office of inspector General, Analysis of Appealed CMP Cases2003




                                                               The Social Security Act
             Cases not appealed took over 6 months             stipulates that imposition of
                      to collect; appealed cases took          remedies should be designed
                                  substantially longer.        “to minimize the time
                                                               between the identification of
                   violations and final imposition of the remedies.”23 For CMPs imposed
                   (excluding appealed cases) in 2000 and 2001, it took approximately 197
                   days (over 6 months) after a deficiency was found to actually collect the
                   money.24 Much of this time is the result of procedures that are required
                   of CMS.
                      Required procedures increase the time between identification of violation
                      and collection of the CMP.
                      For most CMPs (i.e., per day CMPs), final amounts cannot be calculated
                      until compliance is achieved, as determined through a revisit.25 For
                      nonappealed cases, the final revisit affirming compliance (often
                      retrospectively) occurred an average of 74 days (n = 3,376) after the
                      survey initially finding a deficiency(ies). Once compliance is achieved,
                      the State survey team must forward the information to the CMS
                      regional office, which is then responsible for notifying the nursing home
                      of the final CMP amount and due date. In addition, nursing homes
                      must be granted 60 days, during which the nursing home may request
                      an appeal for one or more deficiencies or may waive its right to appeal.
                      In most circumstances, the CMP will not become due until at least 15
                      days after the expiration of the 60-day period or until an appeal request


OEI-06-02-00720       NURSING    H O M E E N F O R C E M E N T:   THE USE   OF   C I V I L M O N E Y P E N A LT I E S   16
F   I N D I N G        S


                      or waiver is received by CMS. On average, it took 89 days (n=3,077)
                      from the final revisit until the CMP was due. Payments were made an
                      average of 32 days (n = 1,482) after the actual due date.26
                      Appealed cases took significantly longer to collect than cases not appealed.
                      Excluding time intervals that were exceptionally long, appealed cases
                      took an average of 420 days to collect, a 110 percent increase in time
                      over nonappealed cases (n = 399).27 (See Figure 4.) The increase
                      appears to be entirely attributable to abeyances resulting from the
                      appeals process. The CMPs do not become due until the appeal is
                      settled, or a decision is reached. Consequently, nursing homes are
                      insulated from the repercussions of enforcement by well over a year.
                      For appealed cases, the collection time line may be significantly
                      underestimated, as payment dates were missing from 50 percent of
                      cases. Those cases were likely still in the appeals process at the point
                      that our data collection efforts ended. The HHS Departmental Appeals
                      Board staff explained that the steps in the appeals process include time
                      needed by the parties to prepare their cases or to negotiate.
                      Additionally, the time period from the final revisit to the CMP due date
                      includes some portion of the 60 days during which the nursing home
                      may request a hearing, and another 60 days after the Administrative
                      Law Judge’s decision to request Board review.28




    OEI-06-02-00720   NURSING   H O M E E N F O R C E M E N T:   THE USE   OF   C I V I L M O N E Y P E N A LT I E S   17
                     In this inspection , we found significant reductions in CMP amounts due
                     and paid. These reductions , however , are permissible and many are
                     required under the current regulations. While CMPs were designed to
                     allow great flexibility in the amount imposed , in practice , the majority
                     are imposed at the low end oftheir allowable range. Further , we found
                     that process delays substantially extend the time for collection of CMP
                     payments; and in some cases , collections did not appear to be pursued.
                     CMPs are the most widely used discretionary remedies by CMS and are
                     often the only enforcement action noncompliant nursing homes will
                     experience. As stated in the regulations , CMPs , along with other
                     remedies , are designed to ensure prompt compliance with quality of care
                     and safety standards. Our findings of routine reductions , combined
                     with impositions at the lower end ofthe dollar range , and delays in
                     collections suggest that current usage patterns could be improved.
                     We make the following recommendations to CMS in an effort to improve
                     CMS' s ability to utilize the CMP as an enforcement tool.

                     Provide written guidance to CMS staff and States regarding appropriate dollar
                                                               The current guidelines in
                     ranges for individual scope and severity ratings.


                     the State Operations Manual group three to four individual scope and
                     severity ratings into a single allowable dollar range; in practice , most
                     CMPs are imposed at the lower end of their range. CMS' s central offce
                     should revise the current guidance to encourage CMS regional offces to
                     fully utilize the designated ranges. While maintaining the flexibility to
                     address extreme situations or a nursing home s compliance history, the
                     guidance should indicate how individual scope and severity ratings
                     relate to specific dollar amounts or narrower dollar ranges , such that
                     the full range of the scale is utilized. CMS' s regional offces should then
                     begin regular reviews for a sample of CMP impositions to ensure that
                     this guidance is being followed.
                     Provide written guidance to CMS staff to clarif                     to past
                                                                           procedures with respect
                     due CMPs and conduct an internal process review that would enable CMS and
                                                        It is our understanding that CMS'
                     States to streamline CMP processing.

                     regional offces do not always track CMP collection efforts after the
                     nursing home is notified that payment is due. Without reliable
                     information on outstanding balances , CMS cannot utilize its most
                     effective means of collection , withholding payments. Outstanding CMPs
                     should be systematically referred to fiscal intermediaries and State
                     agencies for collections. In addition , required procedures increase the
OEI. 06. 02- 00720   NURSING HOME ENFORCEMENT: THE USE OF CIVIL MONEY PENALTIES
R   E C O        M M E N D A T                      I O N            S


                      time between identification of violations and collection of the CMP to
                      almost six months. Scrutiny of the processes may reveal opportunities
                      to minimize this time, as required by the Social Security Act.
                      Agency Comments
                      CMS concurred with our recommendations. The agency further
                      commented that it has already begun work to promote consistent
                      imposition of CMPs and to develop appropriate policy guidance
                      regarding responsibility for collection of past-due CMPs and
                      streamlined CMP processing.

                      CMS noted that we included required reductions for appeal waivers,
                      appeals, and settlements in a discussion of CMP amounts imposed and
                      paid. CMS suggested that an Office of Inspector General (OIG) analysis
                      of the collection process should more properly begin with the amount
                      remaining after accounting for these required reductions and that doing
                      otherwise may imply OIG criticism of CMS performance.

                      We recognize that reductions for appeal waivers, appeals, and
                      settlements are required by Federal regulations, and we appreciate
                      CMS’s concern in this matter. For this reason, we have made certain to
                      clearly denote throughout the report which reductions are obligatory.

                      CMS also provided technical comments for which we made revisions
                      where appropriate. The full text of CMS’s comments is presented in
                      Appendix D.




    OEI-06-02-00720   NURSING   H O M E E N F O R C E M E N T:   THE USE   OF   C I V I L M O N E Y P E N A LT I E S   19
∆   E N D N O T E S




                  1   Sections 1819(f)(1) and 1919(f)(1) of the Social Security Act.

                  2   In situations that are not deemed to pose a threat of serious injury and
                       where no historical pattern of noncompliance is found, the State may
                       afford the facility an “opportunity to correct” prior to recommending
                       remedies to CMS. If deficiencies are not corrected or if an
                       “opportunity to correct” is denied, the State should then send the case
                       to CMS with a recommendation for particular enforcement remedies to
                       be imposed. Cases that do show a pattern of noncompliance and cases
                       that are found to pose a threat of serious injury must be reported to
                       CMS “immediately” so that action can be taken.

                  3   Some of those variations include:

                      • Category 1 remedies are generally imposed by the State at the time of
                        the initial notification to the facility. Formal notice is not required
                        for this class of action.

                      • Revisits may occur at any time during the process. A finding of

                        substantial compliance during a revisit will always end the 

                        enforcement cycle. On average, two revisits are performed during

                        each enforcement cycle.


                      • Revisits finding improvements or worsening of deficiencies could
                        result in a change in effective dates or CMP amounts, thus requiring
                        additional notifications and giving the facility an additional
                        opportunity to establish substantial compliance.

                      • Additional steps may be taken to resolve an unacceptable Plan of 

                        Correction or a disagreement between the State and CMS.


                  4   42 CFR § 488.404.

                  5   A number of changes resulted from OBRA ’87. These statutory changes
                       eliminate the distinction between level A and level B participation
                       requirements; add additional remedies for use in enforcement action;
                       codify the informal dispute resolution process; offer one hearing to
                       dispute findings; classify seriousness of deficiencies for the purpose of




OEI-06-02-00720   NURSING   H O M E E N F O R C E M E N T:   THE USE   OF   C I V I L M O N E Y P E N A LT I E S   20
                       imposing a remedy through the use of scope and severity; establish
                       and define “substantial compliance;” define “substandard quality of
                       care;” establish two civil money penalty ranges; explain “repeat
                       deficiencies” for purposes of increasing a civil money penalty; and
                       establish a “tie breaker” rule, which applies when there are
                       disagreements regarding enforcement between CMS and the State
                       agency.

                  6   “Before the 1987 legislation, the only adverse actions available to [CMS]
                       and the States against facilities that were determined to be out of
                       compliance with Federal participation requirements included
                       termination, nonrenewal, or automatic cancellation of provider
                       agreements; denial of participation for prospective facilities; and
                       denial of payment for new admissions in lieu of termination when the
                       facilities had deficiencies that did not pose an immediate and serious
                       threat to the health and safety of residents.” Source: 59 FR 56116,
                       November 10, 1994.

                  7   42 CFR § 488.402 and 59 FR 56116, November 10, 1994.

                  8   The collected money is divided between the Medicare general fund and
                       the State Medicaid Agency in the same proportion as the split of
                       Medicare and Medicaid beneficiaries in the offending facility. The
                       State’s use of these funds is limited to programs that assist
                       noncompliant facilities in achieving regulatory standards.

                  9   Nursing Homes: Additional Steps Needed to Strengthen Enforcement
                       of Federal Quality Standards (GAO/HEHS-99-46, March 1999).

                  10   42 CFR § 488.436(b).

                  11   59 FR 56116, November 10, 1994.

                  12   Aggregate numbers of nursing facility enforcement appeals were
                       provided by the Departmental Appeals Board. In the calendar years
                       2000, 2001, and 2002, the numbers of hearing requests were 769, 773,
                       and 710, respectively.

                  13   States oversee licensure of individual facilities and certification of
                       Medicaid facilities. Failure to comply with State requirements may




OEI-06-02-00720   NURSING   H O M E E N F O R C E M E N T:   THE USE   OF   C I V I L M O N E Y P E N A LT I E S   21
                       result in the application of remedies or sanctions including money
                       penalties. OIG may exclude providers or impose CMPs for failure to
                       meet professionally recognized standards of care, licensure actions
                       taken by the State, and certain civil and criminal convictions.

                  14   “Data cleaning” is defined as “the process of checking data for errors
                        and correcting those errors whenever possible.” SPSS, Inc.,
                        Clementine 6.0 Users Guide; SPSS; Chicago, IL: 2001. p. 361.

                  15   42 CFR § 488.436(a) and 42 CFR § 488.436(b).

                  16   The percent of cases requesting waivers is much higher than the
                       percent requesting hearings (59 percent vs. 20 percent). However, for
                       cases where the CMP imposed totals over $50,000, 49 percent
                       requested hearings compared with 33 percent that requested waivers.

                  17   Appeal rights and settlements are provided by regulation at 42 CFR
                       §§ 488.432, 498.40, and 488.444, respectively.

                  18   42 CFR § 488.438(f)(2).

                  19   42 CFR § 488.408.

                  20   Case notes revealed that this Kansas facility filed for bankruptcy in the
                       same year as the $1,000 CMP imposition and that the facility also
                       received a discretionary denial of payments for new admissions.
                       However, the facility was cited with an isolated immediate jeopardy in
                       quality of care just months prior. For those two enforcement cycles,
                       the facility was in compliance only 3 weeks out of an 8-month period.

                  21   CMS technical comments to draft report dated November 26, 2004.

                  22   42 CFR § 488.438(f)(2).

                  23   Sections 1819(h)(2)(B) and 1919(h)(2)(A) of the Social Security Act.

                  24   Cases for which the identified deficiency constituted only past
                       noncompliance and cases that remained outstanding at the end of our
                       tracking period were omitted from time analysis.




OEI-06-02-00720   NURSING   H O M E E N F O R C E M E N T:   THE USE   OF   C I V I L M O N E Y P E N A LT I E S   22
                  25   In a few situations, a revisit is not required to assert compliance.

                  26   The number of days attributed to each interval (e.g., survey date to
                       final revisit) during
                                      
      the collection process totals 197. However, the
                       number of days from the survey date to the paid dat
e averages

                       160 because the calculation is based on a different number of 

                       observations. Payment dates were missing on approximately 

                       20 percent of the data; so the latter figure represents a smaller 

                       number of observations. 


                  27   Values for time intervals that were beyond three standard deviations
                       from the mean were excluded so that questionable values did not
                       affect our means.

                  28   December 2002: Telephone interview with Departmental Appeals
                       Board staff.




OEI-06-02-00720   NURSING   H O M E E N F O R C E M E N T:   THE USE   OF   C I V I L M O N E Y P E N A LT I E S   23
  ∆         A P P E N D I X                      ~             A



                    Discretionary Remedies


                    Termination of the Provider Agreement (42 CFR § 488.456)—Facility
                    ceases to provide care for Medicare residents; Medicare residents must
                    be transferred to another facility.

                    Civil Money Penalties (42 CFR §§ 488.430-488.444)—A per day or per
                    instance fine ranging from $50 to $10,000.
                    Denial of Payments for New Admissions (42 CFR § 488.417)—Denial of
                    payments for new Medicare or Medicaid admits.

                    Denial of Payments for All Patients (42 CFR § 488.418)—Denial of
                    payments for all Medicare and Medicaid residents by CMS.

                    State Monitoring (42 CFR § 488.422)—Professional monitor identified
                    by the State agency oversees the correction of cited deficiencies as a
                    safeguard against further harm to residents.

                    Directed Plan of Correction (42 CFR § 488.424)—A plan which the
                    State or regional office develops to require a nursing home to take
                    action within specified timeframes; differs from a traditional Plan of
                    Correction in that an entity other than the nursing home develops it.

                    Directed In-Service Training (42 CFR § 488.425)—Implementation of an
                    educational program designed to increase the knowledge and skill of
                    direct care staff regarding an issue of noncompliance.

                    Closure of Facility or Transfer of Residents or Both (42 CFR
                    § 488.426)—In “emergency” situations, a State may close a nursing
                    home and transfer all residents including private pay patients.




OEI-06-02-00720     NURSING   H O M E E N F O R C E M E N T:   THE USE   OF   C I V I L M O N E Y P E N A LT I E S   24
  ∆         A P P E N D I X                      ~             B

                    Data Description and Cleaning

                    The primary data for this study were obtained from the LTC and were
                    supplemented with data from the CMPTS. The primary functions of
                    these databases are administrative, e.g., reporting and case tracking.
                    Long-Term Care Enforcement Tracking System
                    This system was developed by CMS region V office as a tool to assist in
                    the implementation of the new enforcement regulations.1 The system
                    was voluntarily adopted by several CMS regions in 1998 and 1999, with
                    all regions required to use it by January 2000.

                    The LTC database is believed by CMS staff to be the best electronic
                    source of enforcement information in almost every region. Combining
                    basic nursing home descriptors with all aspects of the enforcement
                    process and differentiating imposed and effected remedies, the LTC
                    data contain significantly more information about the enforcement
                    process than does the Online Survey, Certification, and Reporting
                    database.
                    Civil Money Penalty Tracking System
                    The CMPTS is the centralized CMS database used for tracking the
                    collection and allocation of CMP payments. For analysis involving
                    monetary collections, we found it beneficial to capture fields regarding
                    CMP payments through the CMPTS data rather than the LTC data.
                    The CMPTS data were additionally useful for matching CMP amounts
                    with the specific scope and severity levels that were used to determine
                    those amounts.

                    Although payment information may be collected in LTC, the process is
                    such that regional staff must independently look up collections through
                    CMPTS and enter that information into LTC. Payments are received at
                    the CMS central office in Baltimore, MD, and payment information is
                    entered there. Many CMS regional staff advised us that they do not
                    consistently follow up with this information, or that they keep this
                    information in a separate spreadsheet.




                    1 ‘New regulations’ refers to 42 CFR Chapter IV, Subpart F: Enforcement of Compliance for
                     Long-Term Care Facilities with Deficiencies.



OEI-06-02-00720     NURSING   H O M E E N F O R C E M E N T:   THE USE   OF   C I V I L M O N E Y P E N A LT I E S   25
    A   P   P E N D   I X ~        B


                      LTC/CMPTS Match
                      The CMPTS data were matched to the LTC data using a “CMP
                      Collection Number” that was present (in parts or whole) in both
                      databases. Cases that did not match initially were examined, CMP
                      Collection Numbers were added, wherever necessary, and cases were
                      combined when information indicated that it was necessary. For
                      example, in many cases the CMP information for a single cycle was split
                      across several cases in CMPTS; and it was necessary to combine them to
                      one case and delete the duplicate information. Following the cleaning
                      procedure, the databases were merged and slightly over a 99 percent
                      match rate was achieved. Only 9 cases in LTC did not match the
                      CMPTS, and 18 cases were found only in the CMPTS database.
                      Additional data cleaning was necessary to incorporate information
                      typed in note fields and to address incorrectly entered data.
                      Data Cleaning
                      Data for 8,662 cases were in the original LTC file received for the years
                      2000 and 2001 and 8,309 cases remained after the cleaning procedure,
                      of which 51 percent had CMPs imposed.

                      Cleaning actions were based on information obtained from various
                      sources. Staff at all 10 regional offices were interviewed to gather
                      information about the use of the LTC at the regional level. Information
                      obtained included the data entry processes and the extent of use of the
                      various screens and data fields within each region. As analyses were
                      performed, outliers and questionable values were examined on an
                      individual case basis. Information used to verify the validity of data
                      included alternative fields in both databases and the notes written in
                      the LTC file.
                      Scope of the Data
                      Regional office interviews resulted in the omission of all data from one
                      region. Staff from region II reported that there were database
                      implementation difficulties. Exploration of data from this region
                      indicated that there were excessive missing data and obvious data entry
                      errors, raising concerns about reliability and validity. For these
                      reasons, data from region II were omitted from all analyses (253 cases).

                      Analyses included only data from cycles in which the first visit was
                      conducted in the years 2000 and 2001. We based our decision to use
                      those years on two factors: (1) not all regions were consistently entering
                      information in the LTC prior to 2000 and (2) data from 2002 were not
                      yet complete, since many cycles were still in progress.

OEI-06-02-00720       NURSING   H O M E E N F O R C E M E N T:   THE USE   OF   C I V I L M O N E Y P E N A LT I E S   26
    A   P   P E N D   I X ~        B


                      Additional Data Cleaning Actions
                      Listed below are the additional actions that were taken to clean the
                      data.

                      Some cases were not included in all files. The data were structured in
                      multiple relational databases. Some cases were deleted in the primary
                      database, but were not deleted across all files. Seventy-seven cases
                      were deleted for this reason.

                      Nonenforcement cases were deleted. Eighteen cases were referred or
                      entered inappropriately and did not require enforcement actions. These
                      cases were deleted because they were outside the scope of this study.

                      Duplicate cases were corrected and deleted. Five cases that were
                      duplicated in the LTC during the database implementation process
                      were deleted. There were also 34 duplicate records in the CMPTS, for
                      which the total due and paid for a single cycle had been dispersed across
                      several records. These amounts were combined into a single record, and
                      the duplicates were deleted.

                      Cases in which the CMP status was designated incorrectly were
                      corrected. There were 241 cases for which the CMP was rescinded after
                      an Informal Dispute Resolution reduced the scope and severity of the
                      deficiencies. In addition, 53 cases were marked as CMP cases in error.
                      For another 126 cases, the CMP was never imposed because the nursing
                      home came into compliance quickly, paperwork was too late, the
                      nursing home was having financial difficulty, the CMP was past the
                      statutory limit of two survey cycles, or the CMP was rescinded. These
                      cases had originally been marked in the LTC as CMP cases and were
                      recoded to indicate that they were not. Associated information was
                      deleted from the CMPTS so that monetary totals would not be
                      inappropriately included in analyses, because technically there was
                      never an amount due. The CMP indicator variable was recoded for
                      three cases where CMPs had been imposed, and they were not coded as
                      CMP cases.

                      Missing and incorrect dates were added or corrected. Many of the dates
                      necessary for analysis were available from more than one source. When
                      analyses indicated the date was not correct, alternative data sources
                      were reviewed. Date corrections were made for 81 cases.

                      Dollar amounts were corrected. Corrections were made to the amount
                      imposed for 41 cases in the LTC, for which the amount was missing or
                      entered in error. Information regarding the amount of the CMP due


OEI-06-02-00720       NURSING   H O M E E N F O R C E M E N T:   THE USE   OF   C I V I L M O N E Y P E N A LT I E S   27
    A   P   P E N D   I X ~        B


                      and collected was available from both the LTC and CMPTS.
                      Mismatches between the amounts due and paid often indicated that
                      data were entered into the wrong CMPTS fields. One-hundred thirty
                      corrections were made using information contained in the LTC.

                      The amount due was deleted in 12 cases because the CMPs had been
                      excused for bankruptcy or as the result of an appeal. Corrections were
                      made for 77 appealed cases that had been settled or dismissed, and the
                      final amount due had not been entered. Payment information entered
                      in error was corrected for 82 cases.

                      Notes and other sources of information indicated that a variable was
                      miscoded. Information from alternative sources facilitated
                      1,106 corrections for miscoded or missing information. These
                      corrections included denoting bankruptcy cases, recoding the CMP
                      payment status, correcting remedies imposed and effectuated, inserting
                      CMP collection numbers, denoting immediate jeopardy cases, and
                      adding hearing outcomes. This was possible because multiple indicators
                      were present. For example, cases with a scope and severity rating of J,
                      K, or L but having no designation as an immediate jeopardy case were
                      revised to appropriately designate the case as immediate jeopardy.

                      Questionnable dates were deleted from time analysis. Questionnable
                      dates were found to be problematic in time-related analysis. They
                      skewed the distribution so that the average time to collect CMPs
                      appeared to be inflated. Also, they did not appear to be legitimate for
                      one reason or another. For these reasons, observations with values
                      beyond three standard deviations from the mean were omitted from
                      individual analysis.




OEI-06-02-00720       NURSING   H O M E E N F O R C E M E N T:   THE USE   OF   C I V I L M O N E Y P E N A LT I E S   28
  ∆         A P P E N D I X                      ~             C

                    Terminology

                    For the purposes of this study, we used the following terms and
                    definitions:

                    Actual Harm—Actual harm is typically used to describe deficiencies
                    with scope and severity ratings of G, H, and I. For the purposes of this
                    report, the term actual harm refers to deficiency findings of (1) actual
                    harm that is not immediate jeopardy and (2) a widespread potential for
                    more than minimal harm. This term is used to represent all deficiencies
                    that qualify for Category 2 remedies. Scope and severity ratings of F,
                    G, H, and I are included.

                    Case—A case includes all the enforcement activity that happens with
                    respect to a particular nursing home during a single period of
                    noncompliance. Enforcement staff refer to this as a cycle. A nursing
                    home may have more than one case in our analysis and a case may have
                    more than one CMP.

                    Double G Rule—Cases in which nursing homes were cited for
                    deficiencies of a level of G or higher on the scope and severity scale on
                    the current survey and also the previous standard survey or any
                    intervening survey require “immediate” action by CMS.

                    Due—Refers to cases for which the final amount of the CMP has been
                    decided (hearing waiver received, settlement reached, or the date to
                    waive a hearing or file an appeal has passed) and the date for which the
                    CMP is listed as due and payable in the CMPTS. If this information is
                    not available in the CMPTS, an alternative date is used that equates to
                    15 days after the date of the last regional office letter to the nursing
                    home stating that the CMP is due.

                    Immediate Jeopardy—Deficiency findings that constitute an actual or
                    potential for death or serious injury. This term is used to represent all
                    deficiencies that qualify for Category 3 remedies. Scope and severity
                    ratings of J, K, and L are included.

                    Nursing Home—A Medicare or Medicare/Medicaid dually certified
                    skilled nursing facility. A nursing home may also be referred to as a
                    facility.

                    Opportunity to Correct—A period of time (usually 60 days or less)
                    afforded to noncompliant nursing homes during which they can return
                    to compliance without the involvement of the CMS regional offices.


OEI-06-02-00720     NURSING   H O M E E N F O R C E M E N T:   THE USE   OF   C I V I L M O N E Y P E N A LT I E S   29
    A   P   P E N D   I X ~        C


                      Facilities with immediate jeopardy deficiencies or a historical pattern of
                      noncompliance are denied this “opportunity.”

                      Paid, Unpaid—Is limited to payments entered into the CMPTS prior to
                      December 16, 2002. This represents a functional limitation of our data
                      collection period.

                      Plan of Correction—A formal statement by the nursing home informing
                      the State and CMS of actions that will be taken to address deficiencies
                      identified through a survey.

                      Revisit—An abbreviated survey used to check the status of identified
                      deficiencies.

                      Substantial Compliance—Compliance with Medicare regulations or
                      deficiencies in the A, B, or C level.

                      Uncollectable—Uncollectable cases include those currently in an
                      appeals process or bankruptcy status.




OEI-06-02-00720       NURSING   H O M E E N F O R C E M E N T:   THE USE   OF   C I V I L M O N E Y P E N A LT I E S   30
  ∆         A P P E N D I X                        ~             D

         Agency Comments to Draft Report




OEI-06-02-00720       NURSING   H O M E E N F O R C E M E N T:   THE USE   OF   C I V I L M O N E Y P E N A LT I E S   31
    A   P   P E N D   I X ~        D           





OEI-06-02-00720       NURSING   H O M E E N F O R C E M E N T:   THE USE   OF   C I V I L M O N E Y P E N A LT I E S   32
    A   P   P E N D   I X ~        D           





OEI-06-02-00720       NURSING   H O M E E N F O R C E M E N T:   THE USE   OF   C I V I L M O N E Y P E N A LT I E S   33
                     This report was prepared under the direction of Judith V. Tyler
                     Regional Inspector General for Evaluation and Inspections in the Dallas
                     regional offce , and Kevin Golladay, Assistant Regional Inspector
                     General. Other principal Offce of Evaluation and Inspections staff who
                     contributed include:
                            Amy Ashcraft , Project Leader
                            Clark Thomas , Program Analyst
                            Susan Wolfe , Program Analyst
                            Sandy Khoury, Program Specialist
                            Barbara Tedesco ,      Mathematical Statistician




OEI. 06. 02. 00720   NURSING HOME ENFORCEMENT: THE USE OF CIVIL MONEY PENALTIES
